               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-03413-40


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

    Syracuse VA Medical Center 

           Syracuse, NY 





January 13, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       IT         information technology
                       MM         Medication Management
                       MH         Mental Health
                       MI         motivational interviewing
                       NA         not applicable
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       PII        personally identifiable information
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                         CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY



                                            Table of Contents
                                                                                                                             Page
Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ................................................................................................................      1 

  Scope......................................................................................................................
     1
  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. VISN Director Comments ..................................................................................                    15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              19

  F. Report Distribution .............................................................................................            20

  G. Endnotes ...........................................................................................................         21





VA OIG Office of Healthcare Inspections
                                CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of November 18, 2013, at the
following CBOCs, which are under the oversight of the Syracuse VA Medical Center,
and Veterans Integrated Service Network 2:

   Oswego CBOC, Oswego, NY

   Watertown CBOC, Watertown, NY

Review Results:        The review covered four activities.      We made no
recommendations in the Designated Women’s Health Providers’ Proficiency review.
However, we made recommendations in the following review areas.

Environment of Care. Ensure that:

	 Personally identifiable information is protected by appropriately securing laboratory
   specimens during transport from the Watertown CBOC to the Syracuse VA Medical
   Center.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	 Staff consistently document the offer of further treatment to patients diagnosed with
   alcohol dependence.

	 Registered Nurse Care Managers receive motivational interviewing and health
   coaching training.

Medication Management. Ensure that all CBOC/PCC staff:

	 Document that medication reconciliation was completed at each episode of care
   where medications were administered, prescribed, or modified.

	 Consistently document that written medication information is provided to patients
   when fluoroquinolone antibiotics are prescribed.




VA OIG Office of Healthcare Inspections                                                       i
                                CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 15–16, for the full text of the Directors’ comments.) We consider
recommendation 1 closed. We will follow up on the planned actions for the open
recommendations until they are completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                       ii
                                    CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are one element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                           1
                                    CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and Registered Nurse Care
                               Managers assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0-12.


VA OIG Office of Healthcare Inspections                                                                              2
                                          CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted physical inspections of the Oswego and
Watertown CBOCs. The table below shows the areas reviewed for this topic. The area marked
as NM did not meet applicable requirements and needed improvement..

Table 2. EOC

NM                      Areas Reviewed                                       Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed in high-risk areas (e.g., MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.)
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.



VA OIG Office of Healthcare Inspections                                                                 3
                                          CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY


       PII is protected on laboratory specimens           At the Watertown CBOC, PII was not protected
 X     during transport so that patient privacy is        on laboratory specimens during transport.
       maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The IT network room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period).
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       VA and Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendation
1. 	 We recommended that managers ensure that PII is protected by appropriately securing
     laboratory specimens during transport from the Watertown CBOC to the Syracuse VA
     Medical Center.




VA OIG Office of Healthcare Inspections                                                                  4
                                          CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

Table 3. AUD

NM                     Areas Reviewed                                        Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
 X     Documentation reflects the offer of further        We did not find documentation of the offer of
       treatment for patients diagnosed with alcohol      further treatment for four of six patients
       dependence.                                        diagnosed with alcohol dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 10 of 16 RN Care Managers did
       received MI training within 12 months of           not receive MI training within 12 months of
       appointment to PACT.                               appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 8 of 16 RN Care Managers did
       received National Center for Health Promotion      not receive health coaching training within
       and Disease Prevention approved health             12 months of appointment to PACT.
       coaching training within 12 months of
       appointment to PACT.
 NA    The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

2. 	 We recommended that CBOC/PCC staff consistently document the offer of further
     treatment to patients diagnosed with alcohol dependence.




VA OIG Office of Healthcare Inspections                                                                   5
                                          CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY


3.   We recommended that CBOC/PCC RN Care Managers receive MI and health coaching
     training within 12 months of appointment to PACT.




VA OIG Office of Healthcare Inspections                                                                 6
                                          CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY


Medication Management
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 15 (38 percent) of 40 patient
                                                         EHRs.
 X     Written information on the patient’s prescribed   We did not find documentation that 6 (15
       medications was provided at the end of the        percent) of 40 patients received written
       outpatient encounter.                             information that included the fluoroquinolone
                                                         when the antibiotic was dispensed at the
                                                         CBOCs.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.

Recommendations

4. 	 We recommended that staff document that medication reconciliation was completed at each
     episode of care where medications were administered, prescribed, or modified.

5. 	 We recommended that CBOC staff consistently document that written medication
     information is provided to patients when fluoroquinolone antibiotics are prescribed.




VA OIG Office of Healthcare Inspections                                                                     7
                                          CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                         Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Model.




VA OIG Office of Healthcare Inspections                                                                 8
                                                                                 CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY
                                                                                                                                      Appendix A


                                                                     CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                      Uniquesd                                    Encountersd

                             Station                    CBOC
     Location      State                 Localitye                   MHg        PCh        Otheri        All       MHg         PCh        Otheri         All
                                #                        Sizef
    Rome            NY       528GM         Rural        Large       1,533      5,826       4,839       6,642      11,641      21,027      25,962       58,630
    Binghamton      NY        528GN        Urban       Mid-Size     1,192      4,012       2,714       4,630       5,329      11,847      10,417       27,593
    Watertown       NY       528GO         Urban       Mid-Size      919       3,791       1,892       4,560       5,847       9,125      3,221        18,193
    Cortland        NY        528G9        Rural       Mid-Size      382       2,046       1,250       2,164       2,368       5,747      4,070        12,185
    Oswego          NY        528GP        Rural       Mid-Size      356       1,987        894        2,043       1,733       4,677      2,443        8,853
    Massena         NY        528GL        Rural       Mid-Size      611       1,737        669        1,876       4,032       4,730      1,049        9,811
    Auburn          NY        528G5        Rural       Mid-Size      247       1,466        199        1,502       1,576       4,230       416         6,222




c
  Includes all CBOCs in operation before March 31, 2013. 

d
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx 

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.


VA OIG Office of Healthcare Inspections                                                                                                                         9
                                    CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY


                                  CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.

             CBOC            Specialty Care Servicesj         Ancillary Servicesk       Tele-Health Servicesl
    Rome                           Optometry                    Rehabilitation             Tele Primary Care
                                     Podiatry               Adult Day Health Care
                                 Gastroenterology                 Radiology
                                     Urology                      Pharmacy
                                                             Prosthetics/Orthotics
                                                                   Nutrition
                                                               Sleep Medicine
                                                                               m
                                                              MOVE! Program
    Binghamton                        Podiatry                    Pharmacy                 Tele Primary Care
                                     Optometry               Prosthetics/Orthotics
                                                                Diabetes Care
    Watertown                        Optometry                    Audiology                Tele Primary Care
                                                                   Nutrition
    Cortland                             ---                      Pharmacy                 Tele Primary Care
                                                               MOVE! Program
                                                                   Nutrition
    Oswego                               ---                   MOVE! Program               Tele Primary Care
                                                                   Nutrition
    Massena                              ---                          ---                  Tele Primary Care

    Auburn                               ---                      Pharmacy                         ---



 




j
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician.
k
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician.
l
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/)
m
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.
VA OIG Office of Healthcare Inspections                                                                          10
                                                                                           CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY
                                                                                                                                                Appendix B


                                                                           PACT Compass Metrics
                                                    FY 2013 Average 3rd Next Available in PC Clinics
                              120.0
 Average  Number  of Days




                              100.0
                               80.0
                               60.0
                               40.0
                               20.0
                                0.0
                                                    Syracuse                    Cortland    Massena                  Binghamton   Carthage     Oswego
                                        VHA Total              Auburn (528G5)                         Rome (528GM)
                                                    (528A7)                     (528G9)     (528GL)                    (528GN)    (528GO)      (528GP)
                            OCT FY13      14.6        10.5          4.6           14.4        11.5        14.8          6.9         16.7        19.2
                            NOV FY13      15.2        9.4           4.7           7.0         13.5        16.8          6.6         23.1         6.1
                            DEC  FY13     13.8        8.8           3.0           8.2         10.2         8.1          7.7         17.3         9.0
                            JAN FY13      14.0        7.1           2.4           14.6        13.4        10.1          4.2         17.6         8.3
                            FEB  FY13     14.8        7.9           4.5           11.4        22.3        13.5          4.2         17.2         3.9
                            MAR  FY13     13.3        8.7           6.2           1.7         30.4        12.0          3.8         7.6         12.4
                            APR  FY13     14.4        9.1           5.4           17.7        36.7        18.0          4.5         11.8        10.4
                            MAY FY13      16.0        10.7          22.6          20.7        54.2        16.5          5.5         18.1        16.6
                            JUN FY13      14.2        9.5           8.7           26.4        69.6        16.6          5.7         11.0        12.4
                            JUL FY13      14.6        7.2           6.0           16.9       102.4        14.7          7.3         10.7        11.8
                            AUG FY13      15.7        7.6           4.6           23.0        36.6        18.4          6.2         10.2         7.7
                            SEP  FY13     13.4        6.6           6.4           21.8        67.4        19.0          4.1         7.9         13.5




Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level.

VA OIG Office of Healthcare Inspections                                                                                                                  11
                                                                                                  CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY



                                                                     FY 2013 Established PC Prospective Wait Times 7 Days
                                               100%
         Percentage  of  Patients Scheduled

                                               80%
           Within  7  Days  of Desired  Date




                                               60%


                                               40%


                                               20%


                                                0%
                                                                                                       MAR
                                                      OCT FY13 NOV  FY13 DEC FY13 JAN  FY13 FEB FY13           APR FY13 MAY  FY13 JUN FY13 JUL FY13 AUG  FY13 SEP FY13
                                                                                                       FY13
      VHA  Total                                       83.5%    81.1%     82.4%    82.6%     83.2%     83.6%    84.0%    84.0%     84.1%    84.3%     84.5%    84.7%
      Syracuse  (528A7)                                80.7%    76.5%     85.7%    88.0%     88.2%     87.3%    86.7%    87.4%     88.9%    87.2%     85.9%    87.5%
      Auburn (528G5)                                   96.5%    96.5%     97.5%    97.8%     97.7%     97.5%    97.3%    97.1%     96.6%    95.9%     96.8%    96.1%
      Cortland (528G9)                                 94.2%    92.8%     93.7%    94.7%     95.1%     95.3%    96.9%    95.9%     96.1%    93.0%     93.7%    91.2%
      Massena (528GL)                                  98.6%    99.2%     96.6%    94.6%     96.0%     96.4%    92.3%    97.4%     95.2%    94.8%     97.6%    93.7%
      Rome  (528GM)                                    92.8%    81.8%     89.7%    91.7%     92.4%     88.8%    88.0%    89.8%     89.8%    93.7%     92.8%    94.0%
      Binghamton (528GN)                               80.4%    78.8%     88.6%    95.2%     94.0%     94.1%    91.8%    92.1%     91.0%    91.8%     89.7%    90.0%
      Carthage  (528GO)                                44.3%    49.8%     57.9%    55.3%     62.0%     88.5%    84.7%    74.9%     74.0%    81.9%     87.9%    84.5%
      Oswego  (528GP)                                  85.4%    88.2%     92.1%    92.9%     95.8%     96.6%    95.4%    94.8%     93.0%    92.8%     93.0%    93.4%




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.


VA OIG Office of Healthcare Inspections                                                                                                                           12
                                                                                                                              CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY



                                                                                      FY 2013 Ratio of ER Encounters While on Panel to
                                                                                      PC Encounters  While on Panel (FEE ER Included)
                                                                22%

             Percentage  of  ER  Encounters  to PC Encounters   20%
                                                                18%
                                                                16%
                                                                14%
                                                                12%
                                                                10%
                                                                8%
                                                                6%
                                                                4%
                                                                2%
                                                                0%
                                                                      OCT  FY13   NOV  FY13   DEC FY13   JAN  FY13   FEB FY13   MAR  FY13   APR  FY13   MAY  FY13   JUN  FY13   JUL  FY13   AUG  FY13   SEP FY13
        VHA   Total                                                    16.3%       16.3%       16.4%      16.3%       16.3%       16.3%      16.1%       16.1%       16.0%       15.9%       15.8%       15.7%
        Syracuse  (528A7)                                              19.0%       19.2%       19.4%      19.6%       19.7%       19.9%      19.8%       20.0%       20.0%       19.8%       19.7%       19.6%
        Auburn  (528G5)                                                 6.0%        5.9%       5.8%        5.5%       5.7%        6.0%        6.1%        6.3%        6.4%       6.4%         6.2%       6.0%
        Cortland (528G9)                                                8.4%        7.9%       7.5%        7.1%       6.9%        7.0%        6.6%        6.6%        6.3%       6.4%         7.5%       7.3%
        Massena  (528GL)                                                4.3%        4.3%       4.3%        4.6%       4.6%        4.7%        4.7%        4.7%        4.8%       4.7%         4.7%       4.7%
        Rome  (528GM)                                                   8.0%        7.8%       7.6%        7.4%       7.4%        7.3%        7.4%        7.1%        7.1%       6.8%         6.7%       6.4%
        Binghamton  (528GN)                                             3.6%        3.5%       3.6%        3.6%       3.5%        3.5%        3.6%        3.6%        3.5%       3.4%         3.3%       3.2%
        Carthage  (528GO)                                               6.4%        7.2%       7.4%        7.7%       8.1%        8.3%        8.5%        8.7%        8.6%       8.0%         7.1%       6.7%
        Oswego  (528GP)                                                12.8%       13.2%       13.5%      13.8%       13.8%       14.4%      14.4%       15.2%       15.3%       15.1%       15.1%       14.6%




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.
VA OIG Office of Healthcare Inspections                                                                                                                                                                         13
                                                                                   CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY


                                                  FY 2013 2‐Day Contact Post Disharge Ratio
      100%

        90%

        80%

        70%
        60%

        50%

        40%

        30%

        20%
        10%

         0%
                                                                                                                    Binghamton   Carthage
                  VHA   Total   Syracuse  (528A7) Auburn  (528G5) Cortland (528G9) Massena  (528GL) Rome  (528GM)                           Oswego  (528GP)
                                                                                                                      (528GN)    (528GO)
     OCT  FY13      52.8%            60.1%            0.0%            54.5%            44.4%           25.6%          14.3%       14.3%          77.8%
     NOV  FY13      52.9%            68.1%           20.0%            42.9%            0.0%            22.5%           9.1%       31.8%          76.5%
     DEC FY13       51.5%            57.5%           11.1%            65.0%            6.3%            23.8%          60.9%        9.5%          70.0%
     JAN  FY13      57.2%            68.2%            0.0%            78.6%            20.0%           43.8%          81.3%       16.7%          77.8%
     FEB FY13       60.4%            71.3%           16.7%            87.5%            0.0%            57.5%          58.8%       26.1%          70.8%
     MAR  FY13      64.4%            69.4%           27.3%            73.3%            16.7%           65.8%          50.0%       22.2%          73.7%
     APR  FY13      65.5%            76.9%           33.3%            92.3%            0.0%            70.5%          87.0%       47.6%          72.2%
     MAY  FY13      66.1%            72.8%           23.5%            66.7%            14.3%           37.5%          80.0%       38.1%          68.4%
     JUN  FY13      70.1%            53.7%            9.1%            87.5%            0.0%            39.5%          70.0%       50.0%          93.8%
     JUL FY13       71.1%            61.0%           21.4%            58.3%            44.4%           32.1%          75.0%       16.7%          65.0%
     AUG  FY13      72.7%            64.8%           16.7%            55.6%            25.0%           38.5%          89.5%       19.0%          80.0%
     SEP FY13       68.9%            66.4%           33.3%            43.8%           100.0%           44.1%          75.0%       53.3%          78.6%



Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.

VA OIG Office of Healthcare Inspections                                                                                                                   14
                                CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY
                                                                                     Appendix C
                               VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


           Date:        December 23, 2013

          From: 	       Interim Network Director, VA Health Care Upstate New York,
                        VISN 2 (10N2)

       Subject: 	       CBOC and PCC Reviews of the Syracuse VA Medical
                        Center, Syracuse, NY

             To:        Director, Bedford Office of Healthcare Inspections (54BN)

                        Acting Director, Management Review Service (VHA 10AR
                        MRS OIG CAP CBOC)



       1. I concur with the findings and recommendations of the Office of
          Inspector General Community Based Outpatient Clinic and Primary
          Care Clinic Reviews and have attached the facility action plan to
          resolve the identified recommendations. We believe these changes
          will further enhance key systems and processes at the VA Medical
          Center, Syracuse, NY.

       2. If you have any questions or need additional information, please feel
          free to contact James Cody, Medical Center Director at 315-425-4892.


       (original signed by:)


        Joanne M. Krumberger, FACHE




VA OIG Office of Healthcare Inspections                                                      15
                                 CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY
                                                                                      Appendix D
                               Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:        December 20, 2013

           From:        Director, Syracuse VA Medical Center (528A7)

       Subject: 	       CBOC and PCC Reviews of the Syracuse VA Medical
                        Center, Syracuse, NY

             To: 	      Interim Network Director, VA Health Care Upstate New York,
                        VISN 2 (10N2)



       1. I concur with the findings and recommendations of the Office of
          Inspector General Community Based Outpatient Clinic Review and
          have attached the facility action plan to resolve the identified
          recommendations. We believe these changes will further enhance key
          systems and processes at our Medical Center.

       2. If you have any questions or need additional information, please feel
          free to contact Eric Yeager, Quality Manager at 315-425-4395.

        
        
        
        
       (original signed by:)
       James Cody
       Medical Center Director




VA OIG Office of Healthcare Inspections                                                       16
                                CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that managers ensure that PII is protected by
appropriately securing laboratory specimens during transport from the Watertown
CBOC to the Syracuse VA Medical Center.

Concur

Target date for completion: December 5, 2013

Facility response: The Watertown CBOC manager implemented the use of coded
laboratory specimen delivery zip ties on December 5, 2013 to ensure patient health
information (PII) and laboratory specimens were secure and un-tampered during
shipping transport. 

Recommendation 2. We recommended that CBOC/PCC staff consistently document
the offer of further treatment to patients diagnosed with alcohol dependence.

Concur

Target date for completion: December 20, 2013

Facility response: The CBOC Primary Care staff is utilizing a clinical reminder to
identify patients that have a long history of alcohol dependence to ensure that the offer
of substance abuse disorder (SUD) treatment and the patient’s response to the
treatment offer are documented in the medical record.

Recommendation 3. We recommended that CBOC/PCC RN Care Managers receive
MI and health coaching training within 12 months of appointment to PACT.

Concur

Target date for completion: December 20, 2013

Facility response: As of December 20, 2013, the Primary Care Manager has scheduled
all the CBOC/PCC RN Care Managers who had not received motivational interviewing
and TEACH education within 12 months of appointment to PACT for training in TMS.

Recommendation 4.         We recommended that staff document that medication
reconciliation was completed at each episode of care where medications were
administered, prescribed, or modified.

Concur


VA OIG Office of Healthcare Inspections                                                      17
                                CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY


Target date for completion: February 1, 2014

Facility response: The Pharmacy Manager partnered with the Physician Lead in
Primary care and CBOC staff to implement CBOC system changes that will include:
CBOC staff education regarding medication reconciliation; support for medication
reconciliation documentation; and a process for medical record auditing of CBOC
medication reconciliation to ensure compliance. Auditing results will be provided to
performance management, CBOC staff, and Medical Center leadership and will be
utilized to develop and implement system changes as indicated.

Recommendation 5. We recommended that CBOC staff consistently document that
written medication information is provided to patients when fluoroquinolone antibiotics
are prescribed.

Concur

Target date for completion: February 1, 2014

Facility response: The Pharmacy Manager partnered with the Physician Lead in
Primary care and CBOC staff to implement CBOC system changes that will assure
CBOCs have uniform process for providing and documenting patient medication
information sheets were provided to patients. CBOC Stock Medication Quick orders will
be updated to include a written statement that will document the provision of the patient
medication information sheets to the patient and the patients understanding of the
medication education that was discussed. In addition, Pharmacy will reinforce the
process of providing education sheets with medications from CBOC stock medication
supply.




VA OIG Office of Healthcare Inspections                                                      18
                                CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY
                                                                                     Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Frank Keslof, EMT, MHA, Team Leader
Contributors            Annette Acosta, RN, MN
                        Elaine Kahigian, RN, JD
                        Jeanne Martin, PharmD
                        Claire McDonald, MPA
                        Clarissa Reynolds, CNHA, MBA
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      19
                                CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY
                                                                                     Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Health Care Upstate New York, VISN 2 (10N2)
Director, Syracuse VA Medical Center (528A7)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Kirsten E. Gillibrand, Charles E. Schumer
U.S. House of Representatives: Daniel Maffei, William Owens


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      20
                                  CBOC and PCC Reviews at Syracuse VA Medical Center, Syracuse, NY
                                                                                       Appendix G

                                              Endnotes 


1
  References used for the EOC review included:
  United States Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2,
   2002.
 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
   Privacy Rule, August 14, 2002.
 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
 The Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
 VA Directive 324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
 VHA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
 VHA Handbook 1250.05, Interior Design Operations and Signage, July 1, 2011.
 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
 VHA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
2
  References used for the AUD review included:
 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
3
  References used for the Medication Management review included:
 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.

 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.

 The Joint Commission Standards for Acute Care Hospitals, Medication Management (MM.05.01.01).

 VHA Directive 2012-011 Primary Care Standards, April 11, 2012. 

 The Joint Commission Standards for Acute Care Hospitals, Medication Management (MM.06.01.01)

4
  References used for the DWHP review included:

 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010. 

 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008. 

5
  Reference used for PACT Compass data graphs:

 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013. 





VA OIG Office of Healthcare Inspections                                                                    21
